No. ________________

In the Supreme Court of the United States

JUAN MANUEL LOPEZ-CANALES, PETITIONER,
V.

UNITED STATES OF AMERICA, RESPONDENT
PETITION FOR WRIT OF CERTIORARI
TO THE
UNITED STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT
MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS

Petitioner Juan Manuel Lopez-Canales, by and through his undersigned
attorney, and pursuant to Rule 39.1, Supreme Court Rules, and Title 18,
United States Code, § 3006A(d)(7), respectfully moves this Honorable Court for
leave to proceed in forma pauperis, and for leave to file the attached Petition
for Writ of Certiorari to the United States Court of Appeals for the Fifth Circuit
without prepayment of fees. Petitioner was represented by appointed counsel
under the Criminal Justice Act of 1964, as amended, in the district court and
the court of appeals. Leave to proceed in forma pauperis was never sought in
any other court.

Respectfully submitted.

s/ Bradford W. Bogan
BRADFORD W. BOGAN
Assistant Federal Public Defender
Western District of Texas
727 E. César E. Chávez Blvd., B-207
San Antonio, Texas 78206-1205
(210) 472-6700
(210) 472-4454 (Fax)
Counsel of Record for Petitioner
DATED: December 16, 2020

